~                                 DEPARTMENT OF HEALTH
                                  DEPARTMENT    HEALTH & HUMAN SERVICES
                                                         HUMAN SERVICES                                                                 Office of Inspector General
f . E.
\..,'"~
~+'''4''''''C'''"'.                                                                                                                     Washihgton,
                                                                                                                                        Washington, D.C.
                                                                                                                                                    D.C. 20201
                                                                                                                                                         20201




                                                                                  I~H
                                                                                  I~H 162010
                                                                                      162010



                      TO:
                      TO:                  Thomas
                                           Thomas Frieden
                                           Director
                                           Centers for Disease
                                           Centers     Disease Control and Prevention
                                                                           Prevention


                      FROM:
                      FROM:                Stuart
                                           Stuaii Wright
                                           Deputy Inspector General
                                              for Evaluation
                                                  Evaluation and Inspections


                      SUBJECT:
                      SUBJECT:            Memorandum Report:
                                                         Report: 2009
                                                                  2009HH1Nl
                                                                        1 N 1School-Located
                                                                              School-Located Vaccination
                                                                                             Vaccination Program
                                                                                                         Program
                                          Implementation,  OEI-04-10-00020
                                          Implementation, OEI-04-IO-00020


                      This memorandum
                                 memorandum report provides information about selected 2009 HINI School~Located           School-Located
                      Vaccination
                      Vaccination        (SLV)      programs.       The    Centers     for   Disease  Control
                                          (SLV) programs. The Centers for Disease Control and Prevention (CDC) and Prevention  (CDC) considers
                                                                                                                                       considers
                      SLY to be a viable, large-scale vaccination   vaccination method method for children.     However, CDC
                                                                                                     children. However,    CDC ihdicated
                                                                                                                                 indicated in
                      meetings       with
                      meetings with the      the
                                        Office    Office General
                                               of Inspector of Inspector      General
                                                                  (OIG) that onsite        (OIG)
                                                                                    evaluations of that onsite evaluations of the admÌnistration
                                                                                                                                  administration
                      of RlHl NN11 vaccine at    at SL
                                                     SLV    sites  would     be   useful    because   data
                                                          V sites would be useful because data about local about local implementation   of SL
                                                                                                                                        of SLVV
                      programs
                      programs have been      been limited,
                                                      limited, especially
                                                                especially duringduring influenza
                                                                                            influenza pandemics.

                      In November
                          November and      and December 2009, OIG         OIG conducted onsite interviews and observed the
                      administration         ofRIN!         vaccine
                      administration ofRINl vaccine at 38 selected     at  38   selected elementary
                                                                                             elementary SLY     SLY sites in 6 localities.    Our
                                                                                                                                  localities. Our
                      evaluation
                      evaluation of2009of2009 HINI  HINl vaccination
                                                              vaccinationprograms
                                                                               programs atatthese  theseselected
                                                                                                             selected SLY
                                                                                                                        SLY sites
                                                                                                                              sites included
                                                                                                                                     included three
                                                                                                                                              three
                      objectives:
                      objectives: (1) to (1)  to determine
                                         determine                the SLY
                                                   the extent to which extent    to which
                                                                          sites provided       SLY
                                                                                         the first  dose sites
                                                                                                          of                                      BINI
                                                                                                                provided the first dose of the HINI
                      vaccine
                      vaccine to enrolled students, (2) to determine       determine the extent to which and how SLY               SLY sites
                      implemented
                      implemented specific  specific vaccine
                                                        vaccine administration
                                                                    administration elements,
                                                                                          elements, and     and (3)
                                                                                                                 (3) to
                                                                                                                     to identify
                                                                                                                         identify challenges
                                                                                                                                   challenges and
                                                                                                                                               and lessons
                                                                                                                                                    lessons
                      learned              implementing these elements
                      learned from implementing                          elements across
                                                                                       across SLY SLY sites.sites.

                      We found that,  that, byby locality,
                                                   locality, selected
                                                               selected 8L
                                                                         8LVV sites vaccinated
                                                                                     vaccinated an average of 28 percent of emolled   enrolled
                      students
                      students during their I-day      l-day programs,
                                                               programs, ranging
                                                                           ranging fTom
                                                                                     from 14 percent
                                                                                                 percent toto 45
                                                                                                              45 percent.    This compares
                                                                                                                 percent. This     compares
                      favorably
                      favorably to relevant State and national     national vaccination
                                                                             vaccination rates
                                                                                            rates obtained
                                                                                                   obtained over
                                                                                                               over a longer
                                                                                                                       longer period
                                                                                                                                period of'tirne
                                                                                                                                        oftime
                      and   through
                      and through         a of
                                  a variety variety
                                               methods. of
                                                        For methods.        example, the average vaccination
                                                                       For example,                    vaccination rate in the six  six
                      corresponding
                      corresponding States was 37 percent.                 However, this
                                                                 percent. However,      this statewide
                                                                                              statewide percentage
                                                                                                          percentage reflects
                                                                                                                        reflects the
                                                                                                                                  the number of
                      children
                      children vaccinated over       over aa period ofof approximately
                                                                         approximately 33 months using  using multiple methods
                                                                                                                          methods (e.g.,
                                                                                                                                      (e.g.,
                      private     providers, commercial
                      private providers,          commercial pharmacies,         mass vaccination
                                                                   pharacies, mass      vaccination clinics,
                                                                                                        clinics, SLY)
                                                                                                                 SLV)and andfor
                                                                                                                              foraawider
                                                                                                                                     widerageage
                      range.
                      range. The majority of selected !ocaHties reported SLY to he a useful method to vaccínate a
                                  The   majority      of   selected localities  reported   SLV    to be  a useful  method    to vaccinate     a
                      large number
                               number of children ina short       shortperiod
                                                                        period of
                                                                                oftime,
                                                                                   time, but
                                                                                          but they
                                                                                                they also
                                                                                                      also reported
                                                                                                            reported that
                                                                                                                      that they
                                                                                                                            they would
                                                                                                                                  would need
                      additional      resources to im.plementfuture
                      addítional resources                implementfuture SL   SLV   programs.
                                                                                  V programs.




                      OEI-04-10"00020  2009BINI
                      OEI-04-10"00020 2009 BINI SLY
                                                 SLYProgram
                                                     Program Implementation
                                                              Implementation
Page 2 – Thomas Frieden


We also found a number of challenges associated with implementing SLV programs. For
example, we observed that the majority of selected SLV sites used recommended vaccine storage
containers but did not monitor and record vaccine storage temperature. All selected localities
reported challenges securing sufficient SLV staff and distributing them effectively across
staffing functions. Additionally, selected SLV sites reported experiencing challenges
communicating a clear and consistent message to parents about potential vaccination adverse
reactions and the need for a second vaccine dose. Finally, the majority of selected localities had
not established a billing system to bill third-party payers for the cost of H1N1 vaccine
administration.

The selected localities reported a number of things they would do differently in future SLV
programs. These include simplifying the consent form and educational materials; standardizing
the consent form review process; devoting more staff to registration, triage, and translation;
streamlining staff communication and training; developing a centralized information-sharing
system; and distributing information to parents and participating schools earlier.

BACKGROUND

In June 2009, the World Health Organization declared the start of the 2009 H1N1 influenza
pandemic, and Congress appropriated supplemental funds to prepare for and respond to an
influenza pandemic. 1, 2 Although the pandemic was less severe than anticipated, approximately
59 million cases were estimated nationwide from April 2009 to mid-February 2010. 3
Additionally, CDC estimated 265,000 hospitalizations and 12,000 deaths within the United
States. Among children 17 years of age and younger, there were an estimated 19 million cases
of H1N1 influenza, 85,000 related hospitalizations, and 1,250 deaths nationwide within the same
timeframe.

In July 2009, CDC announced funding to awardees through Public Health Emergency Response
(PHER) grants to enhance State and local public health response capacity for emerging H1N1
influenza outbreaks. 4 CDC distributed a total of $1.35 billion through PHER grants in three
phases. 5 Awardees used the grant funds to plan for their 2009 H1N1 vaccination programs,

1 World Health Organization, World Now at Start of 2009 Influenza Pandemic. Accessed at
http://www.who.int/mediacentre/news/statements/2009/h1n1_pandemic_phase6_20090611/en/index.html on
May 19, 2010.
2 2009 Supplemental Appropriation Act, P.L. 111-32, Title VIII, 123 Stat. 1884 (June 24, 2009).
3 CDC, CDC Estimates of 2009 H1N1 Influenza Cases, Hospitalizations, and Deaths in the United States, April

2009–February 13, 2010. Accessed at http://www.cdc.gov/h1n1flu/estimates_2009_h1n1.htm on May 19, 2010.
4 Funding Opportunity Number CDC-RFA-TP09-902-H1N109, p. 1.
5 Phase 1: On July 31, 2009, a total of $260 million was distributed to PHER awardees to help them assess their

current capabilities in pandemic influenza response and to address remaining gaps. Phase 2: On August 21, 2009,
$248 million was distributed to provide additional resources for mass vaccination planning and implementation
activities. Phase 3: On September 28, 2009, $846 million was given for the implementation of mass vaccination
programs. CDC, Funding Guidance and Technical Assistance to States. Accessed at
http://www.bt.cdc.gov/cdcpreparedness/coopagreement/index.asp on May 19, 2010.


OEI-04-10-00020     2009 H1N1 SLV Program Implementation
Page 3 – Thomas Frieden


including purchasing supplies and hiring additional staff, such as contractors. Compared to SLV
programs for seasonal influenza, the 2009 SLV programs were unique because of delays in
vaccine production and delivery, compressed timelines for planning, and additional concerns
about vaccine safety.

In October 2009, upon availability of H1N1 vaccines, CDC began coordinating the distribution
of limited quantities of two types of H1N1 vaccine: a nasal mist and an injection. The nasal
mist was available for distribution in larger quantities before the injection, so States and
localities initially received larger shipments of this type of the vaccine. According to CDC, the
nasal mist should be administered only to people 2 to 49 years of age who do not have certain
medical conditions, including asthma. 6 The injection can be administered to people 6 months of
age and older, including those with chronic medical conditions and pregnant women. 7
Individuals with a severe allergy to eggs, or any other substance in the vaccine, should not
receive either type, as they may experience adverse reactions to it. 8 Finally, children 9 years of
age and younger who are eligible to receive the vaccine based on the criteria above should
receive two doses of the H1N1 vaccine, separated by a minimum of 21 days. 9

Because of the initially limited supply of the H1N1 vaccine, CDC recommended voluntary
vaccination of target group members (e.g., individuals ages 6 months to 24 years) to prevent
illness among those at higher risk of infection and complications. 10, 11 To implement CDC
recommendations, States developed vaccination programs to reach target group members first.
CDC’s recommendations allowed States and localities flexibility to determine how and when to
vaccinate members of these target groups. Most States chose to direct H1N1 vaccine to
individuals in the 6 month to 24 years of age target group and, as of early May 2010, 40 States
had elected to reach this group using SLV to some degree. 12



6 CDC, 2009 H1N1 Live, Attenuated Influenza Vaccine Information Sheet. Accessed at
http://www.cdc.gov/vaccines/pubs/vis/downloads/vis-laiv-h1n1.pdf on May 19, 2010.
7 CDC, 2009 H1N1 Inactivated Influenza Vaccine Information Sheet. Accessed at

http://www.cdc.gov/vaccines/pubs/vis/downloads/vis-inact-h1n1.pdf on May 19, 2010.
8 There have been rare and mild influenza-like side effects experienced after receiving the 2009 H1N1 vaccination.

However, for those people with severe allergies to chicken eggs, anaphylactic shock resulting in death is possible.
CDC, General Questions and Answers on 2009 H1N1 Influenza Vaccine Safety. Accessed at
http://www.cdc.gov/h1n1flu/vaccination/vaccine_safety_qa.htm on May 19, 2010.
9 CDC, Questions & Answers: Vaccine against 2009 H1N1 Influenza Virus. Accessed at

http://www.cdc.gov/h1n1flu/vaccination/public/vaccination_qa_pub.htm on May 19, 2010.
10 CDC, 2009 H1N1 Vaccine Recommendations. Accessed at http://cdc.gov/h1n1flu/vaccination/acip.htm on

May 19, 2010.
11 Other target groups include pregnant women, caregivers of children younger than 6 months of age, health care

and emergency medical service personnel, and persons aged 25 to 64 with certain health conditions that increased
their risk of complications if infected with H1N1 influenza virus.
12 Center for Infectious Disease Research & Policy, H1N1 Lessons Learned: Vaccination campaign weathered

rough road, paid dividends. Accessed at
http://www.cidrap.umn.edu/cidrap/content/influenza/swineflu/news/apr3010campaign.html on May 19, 2010.


OEI-04-10-00020      2009 H1N1 SLV Program Implementation
Page 4 – Thomas Frieden


Although some States implemented SLV programs during previous influenza seasons, the 2009
influenza season was considered the first widespread use of SLV to vaccinate children against
the influenza virus. CDC considers SLV to be a viable, large-scale vaccination method for
children but indicated in meetings with OIG that onsite evaluations of the administration of
H1N1 vaccine at SLV sites would be useful because data about local implementation of SLV
programs have been limited, especially during influenza pandemics.

School-Located Vaccination
SLV is any vaccination program that takes place on school grounds. SLV usually targets
enrolled students, although vaccine may be offered to others, such as school staff and family
members of students and staff. SLV can occur before, during, and/or after school hours and
involves collaboration between public health departments, schools, and/or school districts. 13
SLV programs may last a month or more within a State or locality, but vaccination at individual
SLV sites is typically held for 1 day only.

Several benefits are associated with conducting vaccination programs at schools. Schools
provide a convenient location with large spaces, such as gymnasiums and cafeterias, to host the
event. Schools also generally have well-established relationships with community members.
Furthermore, school staff, including nurses, are familiar with students and their parents and can
assist in contacting parents or calming nervous students. 14

Federal Guidance for Administering H1N1 Pandemic Influenza Vaccine
Guidance from the Department of Health & Human Services (HHS) and CDC outlines elements
that State and local pandemic influenza planners should consider for vaccine
administration. 15, 16, 17 In a school setting, these elements include ensuring proper vaccine
storage; distributing consent forms and verifying student vaccination eligibility (i.e., obtaining
parental consent and verifying student medical eligibility), staffing the SLV site, communicating
with parents, and billing for vaccine administration costs.

Ensuring proper vaccine storage. To receive doses of the H1N1 vaccine, providers are required
to sign the Vaccine Provider Agreement, which stipulates that they will store the vaccine
according to the manufacturer’s Food and Drug Administration (FDA)-approved




13 CDC, 2009 H1N1 Influenza School-Located Vaccination (SLV): Information for Planners. Accessed at

http://cdc.gov/h1n1flu/vaccination/SLV/planners.htm on May 19, 2010.
14 Ibid.
15 Ibid.
16 CDC, Questions and Answers on 2009 H1N1 Vaccine Financing. Accessed at

http://www.cdc.gov/H1N1flu/vaccination/statelocal/vaccine_financing.htm on May 19, 2010.
17 HHS, HHS Pandemic Influenza Plan Supplement 6 Vaccine Distribution and Use. Accessed at

http://www.hhs.gov/pandemicflu/plan/sup6.html on May 19, 2010.


OEI-04-10-00020    2009 H1N1 SLV Program Implementation
Page 5 – Thomas Frieden


package insert. 18 The 2009 H1N1 package inserts state that both the nasal mist and the injection
must be stored within the 35 degree Fahrenheit (°F) to 46°F (2° Celsius (C) to 8°C) temperature
range. 19 Influenza vaccines may become less effective if they are not stored in the
environmental conditions specified by the manufacturer’s labeling insert.

To ensure that the H1N1 vaccine is stored properly at SLV sites, CDC recommends that SLV
planners place vaccine in containers, such as hard-sided or Styrofoam insulated coolers. CDC
guidance also outlines appropriate packing methods for coolers, which include placing an
insulated barrier between the vaccine and cold packs and ensuring that the thermometer used to
monitor temperature does not touch the cold packs. Refrigerators, while not specifically
recommended, may also be used but should be monitored for a week prior to vaccine storage to
ensure that the appropriate temperature range can be maintained. Additionally, a thermometer
must be kept in the refrigerator and no food or drinks may be stored inside. Vaccine storage
temperature should be monitored and recorded every hour for coolers and twice each day for
refrigerators. 20

Distributing consent forms and verifying student vaccination eligibility. SLV staff is required to
obtain parental consent prior to vaccinating students under the age of 18. 21 To assist in this
effort, CDC developed consent form templates that are available online for State and local
pandemic influenza planners. 22 After modifying the template for their needs, State and local
planners may translate consent forms into other languages prior to distributing them to parents.
Public health and partnering school officials may distribute consent forms to parents or guardians
prior to the start of an SLV program (e.g., through mass mailings, sending forms home




18 Copies of the official Vaccine Provider Agreement are not publicly available. However, a version of the Maine
Vaccine Provider Agreement is available online at http://www.maine.gov/dhhs/boh/maineflu/h1n1/provider-
agreement-2009-2010.shtml. Accessed on May 11, 2010. General information is provided by CDC, 2009 Influenza
(H1N1) Monovalent Vaccine: Vaccine Provider Agreement Q & A. Accessed at
http://www.cdc.gov/H1N1flu/vaccination/statelocal/provider_agreement_qa.htm on May 20, 2010.
19 FDA, Influenza A (H1N1) 2009 Monovalent Vaccines Descriptions and Ingredients. Accessed at

http://www.fda.gov/BiologicsBloodVaccines/Vaccines/QuestionsaboutVaccines/ucm186102.htm on May 19, 2010.
20 CDC, Vaccine Storage and Handling Toolkit. Accessed at http://www2a.cdc.gov/vaccines/ed/shtoolkit/ on

May 19, 2010.
21 State laws govern the specific requirements for obtaining parental consent and SLV planners must develop

consent forms in accordance with these laws. CDC, 2009 H1N1 Influenza School-Located Vaccination (SLV):
Information for Planners, op. cit., p. 4.
22 CDC, Template 2009 H1N1 Vaccination Consent Form. Accessed at

http://cdc.gov/h1n1flu/vaccination/slv/word/h1n1-im-consent-form.doc on May 19, 2010.


OEI-04-10-00020     2009 H1N1 SLV Program Implementation
Page 6 – Thomas Frieden


with children, and/or making forms available online). 23, 24 Alternatively, if the SLV site is
conducted outside normal school hours, when parents will be present to accompany their
children, planners may distribute forms onsite.

Prior to vaccinating students, SLV staff should review the consent forms to verify that parents
have fully completed the forms. They can also use responses that parents provide to health
history questions on the consent form to determine whether students are medically eligible to
receive the vaccine and to determine whether the student should receive the nasal mist or
injection. CDC’s consent form template includes questions to determine whether students have
conditions that increase the risks associated with H1N1 vaccination, such as an egg allergy.

Staffing. Local health departments coordinate staffing for SLV sites. However, SLV sites may
have staffing needs that exceed the local health departments’ capacity. Because of this, CDC
recommends that SLV planners (e.g., health department officials, school officials) consider
recruiting additional medical and nonmedical staff, which may include hiring contractors (e.g.,
commercial community vaccinators). 25 Other sources of SLV staff may include school
employees (e.g., teachers, principals, school nurses) and volunteers (e.g., parents or Medical
Reserve Corps members). Potential roles for these staff include distributing and collecting
consent forms, communicating with parents, transporting the vaccine, assisting with patient flow,
and administering the vaccine. 26 SLV planners must also consider SLV staff’s training needs.
This may range from onsite training for volunteers to medical training for vaccinators who do
not typically treat children.

Communicating with parents. CDC guidance indicates that Vaccine Information Statements
(i.e., sheets produced by CDC that explain vaccination risks and benefits) should be included in
the materials provided to parents before and after vaccination. 27 These Vaccine Information
Statements instruct parents how to properly respond to and report adverse reactions, if they
occur. According to CDC, SLV planners can also communicate with parents about where to take
their children to receive the second dose of the vaccine (e.g., at another SLV site, mass
vaccination clinic, or a private provider). 28 Additionally, planners are encouraged to inform
23
   Because consent forms are governed by State law, not Federal law, some jurisdictions may not be required to
collect signed parental consent forms if the parent is present at the time of vaccination. As such, SLV planners may
choose whether advance dissemination of consent forms is appropriate and/or necessary for their locality. For
general information about guidelines for consent forms, see CDC, 2009 H1N1 Influenza School-Located
Vaccination (SLV): Information for Planners, “Parental Consent Forms.” Accessed at
http://cdc.gov/h1n1flu/vaccination/SLV/planners.htm on May 19, 2010.
24 SLV planners were permitted to distribute consent forms to parents in advance of the 2009 H1N1 Vaccine

Licensure. For general information about optional advanced consent prior to vaccine licensure, see CDC, 2009
H1N1 Influenza School-Located Vaccination (SLV): Information for Planners, “Optional Advanced Consent.”
Accessed at http://cdc.gov/h1n1flu/vaccination/SLV/planners.htm on May 19, 2010.
25 CDC, 2009 H1N1 Influenza School-Located Vaccination (SLV): Information for Planners. Accessed at

http://cdc.gov/h1n1flu/vaccination/SLV/planners.htm on May 19, 2010.
26 Ibid.
27 Ibid., Vaccine Information Statements.
28 Ibid., Potential Sources of non-Public Health Department Staff and Ideas for Recruitment.




OEI-04-10-00020      2009 H1N1 SLV Program Implementation
Page 7 – Thomas Frieden


parents about the date their child was vaccinated and when he or she may need to receive a
second dose of the vaccine (e.g., through an Influenza Vaccination Record card). 29

Billing for vaccine administration. States and localities received the H1N1 vaccine and ancillary
supplies (e.g., needles and syringes) from the Federal Government at no cost and therefore are
not allowed to charge for the vaccine or ancillary supplies. However, States and localities are
permitted to bill third-party payers (e.g., Medicare, Medicaid, private insurance companies) a set
rate to cover certain costs associated with administering the H1N1 vaccine, such as staff salaries
and liability insurance. 30, 31, 32 To be reimbursed for these costs, SLV planners could collect
health insurance information from parents (e.g., on the consent form) and submit claims to the
appropriate third-party payers. CDC collaborated with the Centers for Medicare & Medicaid
Services and other partners to facilitate reimbursement for H1N1 vaccine administration costs;
however, some private insurance companies do not reimburse for these costs. 33 Therefore, if
SLV planners opt to bill third-party payers, they must identify the private insurance companies
that reimburse for these services and incorporate their various billing codes into the SLV’s
billing system. If SLV planners choose not to bill third-party payers for H1N1 vaccine
administration costs, they can use other sources of funding (e.g., PHER grants) to cover all, or
portions of, these costs.

METHODOLOGY

We determined the extent to which 38 elementary SLV sites in 6 localities provided the first dose
of the H1N1 vaccine to enrolled students during their 1-day clinics. We also determined through
onsite interviews and observations how these sites ensured proper vaccine storage, distributed
consent forms, verified student vaccination eligibility, staffed the SLV sites, communicated with
parents, and billed for vaccine administration. Additionally, we asked SLV planners to identify
challenges and lessons learned from their 2009 programs, and potential changes to consider for
SLV programs in future influenza seasons.

Selection of Localities and SLV Sites
We selected a purposive sample of 6 localities, which included 38 urban, elementary SLV sites.
To select this sample, we first identified States conducting H1N1 SLV programs and determined
whether they had previously implemented SLV programs. We selected States with varying

29 CDC, Influenza Vaccination Record Card. Accessed at
http://www.cdc.gov/h1n1flu/vaccination/slv/pdf/h1n1vaxrecord.pdf on May 19, 2010.
30 CDC, H1N1 Vaccine Administration Billing Q & As. Accessed at

http://www.cdc.gov/h1n1flu/vaccination/statelocal/vaccing_billing_qa.htm on May 19, 2010.
31 The decision to bill for vaccine administration is made by the city, county, State, or commercial community

vaccinator, not by individual schools.
32 These set rates vary by State and provider, but are approximately $20 per vaccine administration. For an example

of reimbursement rates for the 2009 H1N1 Influenza vaccine administration fees, see Highmark, 2009
Reimbursement Fees: Flu, Pneumococcal and Hepatitis B Vaccines. Accessed at
https://www.highmarkmedicareservices.com/partb/reimbursement/flu-pnu-hep-09.html on June 2, 2010.
33 CDC, Questions and Answers on 2009 H1N1 Vaccine Financing, op. cit., p. 2.




OEI-04-10-00020     2009 H1N1 SLV Program Implementation
Page 8 – Thomas Frieden


levels of SLV experience to capture a range of procedures and the associated challenges and
lessons learned. We then identified Metropolitan Statistical Areas (i.e., localities) within these
States that had a population of at least 2.5 million residents. 34 From this sample we selected six
localities that had scheduled SLV clinics to provide the first dose of the H1N1 vaccine at
elementary schools within our evaluation timeline (i.e., early November to mid-December 2009).
We refer to these localities consistently throughout the report as Localities A, B, C, D, E, and F.
See Appendix A for an alphabetical listing of the selected localities.

We then selected six to eight elementary schools per locality based on the scheduled SLV date
and time. We selected elementary schools because of their large grade range
(i.e., pre-Kindergarten through sixth grade) and because their age demographics were consistent
with children in an age range that CDC recommended receive a second vaccine dose (i.e.,
9 years of age and younger). See Appendix B for additional characteristics of the 38 selected
SLV sites, by locality.

Selection of SLV Elements
Based on our review of HHS and CDC guidance and feedback from CDC staff, we selected five
SLV elements to include in our evaluation: ensuring proper vaccine storage, distributing consent
forms and verifying student vaccination eligibility, staffing, communicating with parents, and
billing for vaccine administration.

Data Collection
To collect data for this study, we conducted onsite interviews with SLV staff and observed
vaccine administration activities during the 1-day clinic at each selected school. We also
administered followup surveys to SLV planners and reviewed documents collected from each
SLV site and/or locality.

Data collection instruments. We developed onsite interview and observation guides based on the
five selected SLV elements. We also developed a followup survey for SLV planners to collect
data regarding the number of students vaccinated and feedback regarding challenges and lessons
learned from their 2009 programs and potential changes to consider for SLV programs in future
influenza seasons. We coordinated with CDC to develop these data collection instruments.

Interviews and observations. Between November 4 and December 15, 2009, we met with SLV
planners in the six selected localities to collect relevant information about their SLV programs.
We also conducted structured onsite interviews with SLV staff on the vaccination day. SLV
staff included health department employees, contracted field managers, school nurses, contracted
nurses, and school principals. In addition to the onsite interviews, we observed vaccine

34 According to the U.S. Census Bureau (Census), Metropolitan Statistical Areas are geographic entities defined by

the U.S. Office of Management and Budget for use by Federal statistical agencies in collecting, tabulating, and
publishing Federal statistics. These areas contain a core urban area with a population of 50,000 or more.
Additionally, they include the counties containing the core urban area as well as any adjacent counties that have a
high degree of social and economic integration with the urban core.


OEI-04-10-00020      2009 H1N1 SLV Program Implementation
Page 9 – Thomas Frieden


administration during the 1-day clinic at each SLV site in our sample and collected data
regarding the five SLV elements we selected (e.g., whether temperature monitoring devices were
present, whether there was a system in place at the SLV site for verifying parental consent, the
number of SLV staff serving in each staffing function).

Followup surveys. In late December 2009, we emailed a followup survey to SLV planners in
each of the six selected localities. We requested information regarding student enrollment,
vaccine coverage rates for the first H1N1 dose by type of vaccine (i.e., nasal mist or injection),
and information about how and where the locality would offer the second vaccine dose. We also
asked SLV planners to identify challenges and lessons learned from their 2009 programs, and
potential changes to consider for SLV programs in future influenza seasons. Finally, we
requested supporting documentation, including SLV planning documents, onsite vaccine storage
and handling procedures, parental consent form packages, and information provided to parents
about potential adverse reactions and the need for a second vaccine dose.

Data Analysis
To determine the extent to which and how selected SLV sites implemented the five selected SLV
elements, we analyzed interview, observation, and followup survey data. We synthesized these
data from these three sources to verify accuracy and to provide a more complete analysis. We
present most of these data by locality because SLV programs and activities were generally
similar across SLV sites in the same locality. However, where there were differences among
SLV sites within a locality, we present these data by individual SLV sites.

Percentage of enrolled students vaccinated in 1 day. To determine the extent to which selected
SLV sites vaccinated enrolled students during their 1-day clinics, we calculated—across all
38 SLV sites and by locality—the percentage of enrolled students that received the H1N1
vaccine on the day of the SLV clinic. 35 We also calculated, across all six corresponding States,
the estimated statewide percentage of individuals 6 months to 17 years of age vaccinated. 36
Additionally, we calculated the percentage of students vaccinated with each type of vaccine, by
locality. Finally, we calculated the number of selected localities that identified SLV as a useful
vaccination model and reported that they would implement SLV programs in the future.

Ensuring proper vaccine storage. We calculated the number of SLV sites that used coolers,
refrigerators, or a combination of these methods to store the vaccine. We also calculated the
number of SLV sites that had a temperature monitoring device and the number of SLV sites that
used the device to monitor and record vaccine storage temperature. Finally—by type of storage
container—we calculated the number of SLV sites that monitored and recorded vaccine storage
temperature according to CDC guidelines and determined how frequently the monitoring and
recording occurred.

35 Using the enrolled student population for each locality, we weighted the percentage of students vaccinated to
account for varying population sizes.
36 Using the number of children under the age of 18 residing within the State based on 2008 Census data, we

weighted the percentage of children vaccinated to account for varying population sizes.


OEI-04-10-00020      2009 H1N1 SLV Program Implementation
Page 10 – Thomas Frieden


Distributing consent forms and verifying student vaccination eligibility. We calculated the
average number and range of days prior to the vaccination day that consent forms were
distributed, and we identified the most common distribution methods. Additionally, we
calculated the number of SLV sites that distributed reminders to parents to return consent forms
and identified the most common reminder methods. Finally, we calculated the number of SLV
sites that verified student vaccination eligibility and identified the verification methods they
used.

Staffing. We consolidated and renamed staffing functions into the following categories based on
similar job responsibilities, for consistency: vaccinator, triage, registration, special needs (which
includes translators), manager, clerical, postvaccine, and other (e.g., security guards). We also
consolidated and renamed the sources of onsite staff: Department of Health (i.e., local health
department), Department of Education, contractor, other city agency, volunteer, and school
nurse. Then, we calculated the average number and range of SLV staff across all selected SLV
sites. We also identified the most common staffing sources and counted the number of SLV sites
that reported using contractors. Additionally, we calculated the average number, average
percentage, and range of staffing functions at all selected SLV sites.

Based on our observations and interviews with onsite staff, we also identified where there were
waiting lines of people (i.e., delays) at various points in the vaccination process, and we
identified those delays by staffing function. We calculated the number of minutes it took for a
child to proceed through the SLV site (i.e., vaccination time) and, when the vaccination time was
longer than our site visit, we asked onsite staff to estimate the vaccination time for us. We
categorized vaccination times as “long” if the processing time for a student was greater than
45 minutes.

Communicating with parents. We identified the most common methods to communicate with
parents about potential adverse reactions associated with vaccination and the need for children
9 years of age and younger to receive a second H1N1 vaccine dose.

Billing for vaccine administration. We calculated the number of localities that billed third-party
payers for vaccine administration and identified which payers they billed. We also described
alternative approaches that the remaining localities used to pay for vaccine administration costs.

See Appendix C for characteristics of SLV sites as they relate to these five selected elements.

Limitations
Our results are based on a purposive sample and therefore we cannot generalize to other SLV
programs.

The 1-day selected SLV clinics occurred at various stages in the localities’ H1N1 vaccination
programs. For example, selected SLV sites in one locality were among the first to be held in that
locality, while selected SLV sites in another locality were among the last to be held in that



OEI-04-10-00020   2009 H1N1 SLV Program Implementation
Page 11 – Thomas Frieden


locality. Because SLV planners typically adjusted their programs as time progressed, SLV sites
we visited later may have had more opportunities to adjust and improve the overall program
prior to our visits.

The percentage of enrolled school children vaccinated at SLV sites on the day of our visit is
based on self-reported data. The reported 1-day SLV rates may underestimate overall SLV
first-dose vaccination coverage rates because schools may have also offered first doses at
second-dose clinics.

A number of factors influence vaccination rates, and we were not able to assess the effect of all
of these variables. Such factors include the SLV date (e.g., relative to the timing and impact of
H1N1 illness within the community), time (e.g., during or after school), and the type of vaccine
available (i.e., injection or mist). Other factors may include the timing and methods of consent
form distribution, collection, and review; as well as lack of knowledge about the vaccine.
Additionally, community demographics and variations in media coverage of the influenza
pandemic may influence vaccination rates. For example, in one locality, SLV planners observed
an increase in returned consent forms after a number of local news stations extensively covered a
child’s death because of H1N1.

Standards
This evaluation was conducted in accordance with the Quality Standards for Inspections
approved by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Selected SLV Sites Vaccinated an Average of 28 Percent of Enrolled Students During Their
1-Day Clinics
Selected SLV sites vaccinated an average of 28 percent of enrolled students in 1 day.
Additionally, they administered a slightly higher percentage of the H1N1 injection than nasal
mist. Finally, the majority of localities reported that SLV is a useful vaccination method but said
that they would not implement future SLV programs without additional resources.

We found that, by locality, selected SLV sites vaccinated an average of 28 percent of enrolled
students (5,910 of 20,862) in 1 day, ranging from 14 percent to 45 percent. 37 Table 1 presents
the average percentage and range of students vaccinated in 1 day at selected SLV sites by
locality. The vaccination rate at selected SLV sites (28.3 percent) reflects the number of children
vaccinated during a 1-day period using one method (i.e., SLV). In comparison, the average
vaccination rate in the six corresponding States (37.3 percent) reflects the number of children
vaccinated over a period of approximately 3 months using multiple methods (e.g., private

37 Some of the percentages for individual SLV sites may be overestimated or underestimated if SLV planners

expanded the group of people eligible to receive the vaccine (e.g., school-aged siblings) or if only a portion of the
enrolled students (e.g., only certain grades) were eligible to receive the vaccine on the day of our site visit. See
Appendix B for the groups eligible to receive the vaccine, by SLV site.


OEI-04-10-00020      2009 H1N1 SLV Program Implementation
Page 12 – Thomas Frieden


providers, commercial pharmacies, mass vaccination clinics, SLV) and for a wider age range. 38
The national median vaccination coverage rate for children aged 6 months to 18 years in the
same 3-month period—nearly 37 percent—is similar to the average in these six States. 39

            Table 1: Average Percentage and Range of Students
            Vaccinated at Selected SLV Sites in 1 Day, by Locality
                                               Average Percentage of           Range of Percentage of
                                               Students Vaccinated at          Students Vaccinated at
              Locality                             Selected SLV Sites              Selected SLV Sites
              A                                                44.7%                     28.0%–67.4%
              B                                                   29.6%                   20.9%–37.6%
              C                                                   28.1%                   16.9%–41.0%
              D                                                   22.6%                     4.3%–37.9%
              E                                                   17.5%                     7.1%–25.1%
              F                                                   14.4%                     9.0%–33.2%
              Weighted Average                                    28.3%                              N/A
              Source: OIG analysis of H1N1 SLV data, 2010.


Of the reported total number of students vaccinated at selected SLV sites, approximately
42 percent received the nasal mist and 59 percent received the injection. Table 2 shows the
percentage of students vaccinated with each type of vaccine. Four localities offered both the
nasal mist and injection to all students. Of these localities, three administered the nasal mist as
the primary vaccine, provided that the student was eligible (e.g., had no underlying medical
conditions, such as asthma), while the fourth locality gave parents the opportunity to choose
which type of vaccine their child received. The remaining two localities chose to offer only the
injection to certain elementary school grades because of high rates of these underlying
conditions. Finally, three of the six localities reported a difference in demand between the
injection and nasal mist because of parental and staff misconceptions about the safety of the
nasal mist. For example, there were incorrect messages circulating in the media that the H1N1
nasal mist could make recipients sick with influenza because it is a “live, attenuated vaccine.” 40
Localities reported that, as a result, some parents did not allow their children to receive the nasal
mist.




38 Estimate is based on data from CDC, Interim Results: State-Specific Influenza A (H1N1) 2009 Monovalent

Vaccination Coverage—United States, October 2009–January 2010. Accessed at
http://www.cdc.gov/mmwr/preview/mmwrhtml/mm5912a2.htm?s_cid=mm5912a2_e on May 20, 2010.
39 Ibid.
40 Live, attenuated vaccines contain a weakened version of the influenza virus that is activated but will not cause

illness. CDC, 2009 H1N1 Live, Attenuated Influenza Vaccine Information Sheet. Accessed at
http://www.cdc.gov/vaccines/pubs/vis/downloads/vis-laiv-h1n1.pdf on May 19, 2010.


OEI-04-10-00020      2009 H1N1 SLV Program Implementation
Page 13 – Thomas Frieden


                 Table 2: Percentage of Vaccinated Students That Received
                 Nasal Mist or Injection on Day of Site Visit, by Locality
                                                                Percentage of                    Percentage of
                                                          Students Vaccinated              Students Vaccinated
                  Locality                                    With Nasal Mist*                  With Injection*

                  E                                                          73.8%                              26.2%

                  F                                                          61.4%                              38.6%

                  B                                                          58.8%                              41.2%

                  D                                                          33.5%                              66.5%

                  C                                                          28.7%                              71.3%

                  A                                                          26.9%                              73.1%

                  Weighted Average                                           41.5%                              58.5%
                  * Differences in quantities and availabilities of each type of vaccine, along with parental
                  preference, may have affected these percentages.
                  Source: OIG analysis of H1N1 SLV data, 2010.


The majority of selected localities reported that SLV is a useful method to vaccinate a large
number of children in a short period of time, but some said they will need additional resources to
implement future SLV programs. Three of the six selected localities reported that they are likely
to offer SLV in the future. Another two localities reported that they would consider offering
SLV programs in the future only if they received Federal funding. These localities reported that
SLV programs are very resource intensive and require dedicated full-time staff, sufficient
funding to cover both vaccine and administrative costs, and ample planning time. One of these
localities reported that it might choose to vaccinate school-aged children using a more traditional
vaccination model that requires fewer resources, such as a community-wide, large-scale
vaccination clinic. Finally, the remaining locality reported that it might offer SLV in the future,
but only in a pandemic influenza scenario.

The Majority of Selected SLV Sites Used Recommended Vaccine Storage Containers but
Did Not Monitor or Record Vaccine Storage Temperature
CDC recommends that SLV sites use hard-sided or Styrofoam coolers with cold packs to
maintain vaccine storage temperature. Refrigerators, while not specifically recommended, may
also be used to store vaccine if they can reliably maintain the required temperature range and
have met other requirements described in CDC’s vaccine storage guidance. 41 Twenty-nine of
the thirty-eight SLV sites used coolers to store the vaccine. Three SLV sites used a combination
of coolers and refrigerators, and all six SLV sites in one locality relied only on refrigerators.
SLV planners in this locality reported experiencing some problems with faulty refrigerators that
did not maintain the required temperature range. This caused some SLV sites to be rescheduled
and compromised small amounts of the vaccine. Another locality considered using refrigerators
at its SLV sites but opted against this because of concerns about cost and immobility.

41   CDC, Vaccine Storage and Handling Toolkit, loc. cit.


OEI-04-10-00020        2009 H1N1 SLV Program Implementation
Page 14 – Thomas Frieden


The required temperature storage range for both types of the H1N1 vaccine is between
35 and 46°F (2–8°C). 42 CDC’s vaccine storage guidelines state that vaccine may become less
effective if not stored in the temperature range required by its labeling. 43 If SLV staff is not
monitoring the vaccine storage temperature, they cannot ensure that the vaccine is stored
properly and will be effective when administered. Approximately half of SLV sites (20 of 38)
had temperature monitoring devices in the cooler or refrigerator with the vaccine. Of these sites,
the majority (16 of 20) used thermometers. The remaining four sites used a color-coded
temperature indicator that would change color if the temperature went outside of the required
range.

CDC also recommends that vaccine storage temperature be recorded, but only 12 SLV sites did
so. Of the nine SLV sites that stored vaccine in coolers and recorded vaccine storage
temperature, six did so hourly (i.e., consistent with the interval recommended by CDC), while
the remaining three recorded the temperature every 2 hours. The three SLV sites that used
refrigerators to store vaccines recorded temperature twice daily as recommended by CDC.

Finally, we observed some vaccine storage procedures that were inconsistent with CDC’s
vaccine storage and handling guidelines, which specify how coolers should be packed,
monitored, and used. 44 For example, we observed some SLV site staff leaving coolers open for
extended time periods without monitoring temperature. We also observed tightly packed coolers
that were missing spacers between the vaccine and cold packs, which could have caused the
vaccine to become too cold. Additionally, we observed food items stored beside the vaccine and
thermometers placed directly on top of or next to cold packs within the coolers, which can cause
inaccurate temperature readings.

All Selected Localities Used Parental Consent Forms To Verify Student Vaccination
Eligibility, Although Most Reported That They Would Revise Their Procedures for Future
Programs
All selected SLV sites verified student vaccination eligibility prior to administering the H1N1
vaccine and used various consent form distribution and eligibility verification procedures. SLV
planners also reported a number of changes they would make to their consent form development,
distribution, and review processes for future SLV programs.

All SLV sites distributed, collected, and verified parental consent forms prior to vaccinating
students.

Consent Form Distribution, Collection, and Parent Reminders: The majority of SLV sites
(32 of 38) made consent forms available to parents prior to the day of vaccination. These SLV
sites made consent forms available an average of 29 days in advance (ranging from 7 to 61 days).
In some cases, SLV sites reported that distributing consent forms before the day of vaccination

42 FDA, Influenza A (H1N1) 2009 Monovalent Vaccines Descriptions and Ingredients, loc. cit.
43 CDC, Vaccine Storage and Handling Toolkit, loc. cit.
44 Ibid.




OEI-04-10-00020     2009 H1N1 SLV Program Implementation
Page 15 – Thomas Frieden


presented vaccination challenges. For example, some students were vaccinated elsewhere
(e.g., by a private provider) between the time the consent form was returned and the day of
vaccination. Therefore, SLV staff had to determine whether the information parents provided on
the consent form regarding immunization status was current. This typically was accomplished
by calling the parents, which localities reported was time and labor intensive.

Of the SLV sites that made consent forms available to parents prior to the day of vaccination
(32 of 38), 5 used multiple methods to do so. The most common methods for making consent
forms available in advance included sending them home with students (14 of 32) and making
them available online (10 of 32). However, 3 of the 10 SLV sites that posted forms online also
had forms available at the site because some parents did not have access to a computer and could
not provide consent in advance through the online system.

The majority of SLV sites (27 of 32) that distributed parental consent forms in advance also sent
reminders to parents to return the consent forms. Approximately one-third (11 of 32) of SLV
sites used more than 1 reminder method. These methods included mailing reminders home to
parents and making personal or automated phone calls (10 of 32 SLV sites for each method).
Finally, more than two-thirds (23 of 32) of SLV sites that distributed consent forms in advance
collected completed forms by having students return them to their teachers or school nurses.

The remaining six SLV sites distributed consent forms to parents on the day of vaccination. All
of these sites were held after school. Distributing consent forms on the day of vaccination
allowed parents to ask questions while completing the form. However, at most SLV sites that
distributed consent forms on the day of vaccination, we observed long lines at registration. This
appeared to be because of the amount of time it took for a parent to complete the consent form
and ask questions.

Consent Form Verification: Most of the selected SLV sites were held during school hours and
did not require parents to be present. More than half of the SLV sites that distributed consent
forms in advance (20 of 32) had nurses review the form upon receipt to identify any missing
information. Additionally, all SLV sites conducted onsite reviews of the consent forms, which
typically took place at registration and again immediately prior to vaccination. As a result of
these review processes, several SLV sites also needed to call parents on the day of vaccination to
complete or verify the information on the parental consent form. School nurses generally made
these phone calls, which facilitated the process because they often knew the child and/or parent.
However, planners reported that the additional step of calling parents required a substantial
amount of time and is something they would try to avoid in future programs by standardizing the
review process and training staff to use this process. The SLV sites that distributed consent
forms on the day of vaccination were able to ensure completeness of consent forms more easily
because the registration staff could verify the necessary fields while the parents were present.

All 28 SLV sites held during school hours had procedures to match students to their consent
forms, since the parents were typically not present. Approximately one-half of these SLV sites



OEI-04-10-00020   2009 H1N1 SLV Program Implementation
Page 16 – Thomas Frieden


(15 of 28) created a roster or list of students to identify those with parental consent. These SLV
sites generally provided the roster to teachers or volunteers, who used it to determine which
children to bring to the vaccination area. Other methods included relying on school staff to
manually match children to their signed consent forms (8 of 28) and using both a roster and
nametags (5 of 28) to identify those children with parental consent.

All 38 SLV sites had procedures to identify children who had medical conditions that increased
the risk of adverse reactions associated with H1N1 vaccination or a particular type of vaccine.
For example, all of the consent forms included questions related to egg allergies and asthma.
Across SLV sites, the vaccinators verified whether students had risk factors related to the
vaccine and in some cases asked children additional questions (e.g., “Do you eat eggs for
breakfast?” and “Do you use an inhaler?”) to ensure that they received the appropriate type of
vaccine.

SLV sites in all but one locality would change some aspects of their consent form development,
distribution, and review processes for future SLV programs. SLV planners reported multiple
consent form distribution methods and a high degree of collaboration between the Department of
Health and the Department of Education to develop, print, and distribute program materials as
overall program strengths. They also relied on schools’ past experiences communicating with
parents. However, SLV planners specified a number of overall program challenges, including:

      involving multiple agencies and/or individuals in the distribution, collection, and review
       of the consent forms;
      formatting the consent forms to accommodate parents’ varying reading levels;
      translating the consent forms; and
      not adhering to the consent form return deadline.

For future SLV programs, planners reported that they would simplify consent form packets by
making the forms shorter and at a lower reading level and include only those materials that are
medically and legally necessary. Planners would also make the consent form more versatile by
including a field to record the second vaccine dose or creating an annual vaccination form that
included influenza. Finally, planners would provide SLV staff with standardized training for
collecting and reviewing consent forms.

All Selected Localities Used Similar Staffing Functions and Sources; However, Each
Encountered Challenges Securing Sufficient SLV Staff and Distributing Them Effectively
Across Functions
SLV planners in all six localities indicated that having sufficient staff was integral to the success
of their H1N1 SLV programs. All selected SLV sites hired contractors to supplement staff from
other sources. The three most commonly staffed functions at SLV sites were vaccinators, triage,
and registration. Those sites that reported not having enough staff most often needed more
registration staff, translators, and vaccinators. Table 3 presents the average number, average
percentage, range, and a description of staffing functions at selected SLV sites. SLV planners


OEI-04-10-00020   2009 H1N1 SLV Program Implementation
Page 17 – Thomas Frieden


reported that they would make staffing changes for future SLV programs, including changing the
distribution of staff across functions, improving staff communication, and providing additional
training for SLV staff.

                     Table 3: Staffing Functions at the 38 Selected SLV Sites
                                Average
   Staff
   Function              Number*      Percentage*        Range                            Description of Staff Duties
   Vaccinator                    4             31%                                                  Vaccinate patients
                                                                1–8

   Triage                        3             23%                                                Facilitate patient flow
                                                               0–14
                                                                            Review consent forms and confirm patient
   Registration                  2             15%              0–5
                                                                                                                identity
   Special                                                             Provide services to patients with special needs,
                                 1               8%            0–10
   Needs                                                                     such as translation or learning disabilities
                                 1               8%                              Control the operation of the SLV site
   Manager                                                      0–5
                                                                      Provide clerical services at the SLV site, such as
   Clerical                      0               0%             0–4
                                                                                                               data entry
                                                                       Monitor patients for potential adverse reactions
   Postvaccine                   0               0%             0–2
                                                                                                        after vaccination
                                                                        Provide services that did not fall into any other
   Other                         1               8%            0–18      category, such as security guards and quality
                                                                                                    assurance reviewers
   All Staff                    13                             4–33
  * Sums of columns do not equal totals because of rounding.
  Source: OIG analysis of H1N1 SLV data, 2010.


All localities used contractors at SLV sites to supplement staff from other sources and reported
challenges obtaining sufficient staff. SLV sites used an average of 13 staff, ranging from 4 to 33.
All SLV sites used contractors in addition to staff from other sources, such as the local
Department of Health, Department of Education, other city agencies, and/or volunteers.
Contractors made up the largest source of staff at most SLV sites (27 of 38), averaging
50 percent of staff across selected sites. The local Department of Health contributed the second
largest average number of staff at SLV sites.

SLV planners reported challenges obtaining a sufficient number of SLV staff. As a result, some
SLV sites (7 of 38) encountered long vaccination times. Additionally, several localities reported
problems with staff turnover or staff not showing up at the SLV sites; this resulted in a loss of
experienced and trained staff, delays, and challenges with managing and redistributing staff.
Additionally, two localities reported that the success of their SLV programs was dependent on
school staff. However, schools in these two localities were not able to provide a sufficient
number of staff because of budget constraints and lack of communication between SLV planners
and school administrators.



OEI-04-10-00020      2009 H1N1 SLV Program Implementation
Page 18 – Thomas Frieden


Localities experienced challenges distributing SLV staff across necessary staffing functions.
SLV staff performed a variety of functions, and localities differed in how they distributed staff
among these functions. Across all SLV sites, there was an average of four vaccinators, ranging
from one to eight. The next most frequently staffed function was triage. SLV sites had an
average of 3 staff performing triage functions, ranging from 0 to 14. The third most frequently
staffed function at SLV sites was registration. SLV sites had an average of two registrars,
ranging from zero to five. Two localities reported that it was helpful to use nurses at registration
to prescreen children and review consent forms for completeness and accuracy because of their
specialized training and knowledge of medical terminology and potential adverse reactions.

SLV planners cited challenges related to staff composition, such as not having an effective
distribution of staff members across functions. Some of the SLV sites (8 of 38) appeared to have
sufficient staff but distributed them in such a way that delays occurred, usually at registration.
We observed that all of the observed delays were because of a lack of registrars to review
consent forms, translators to facilitate communication, or triage staff to help ensure clinic flow.
Additionally, two localities reported that having an insufficient number of trained staff to review
consent forms slowed the vaccination process. Delays at registration were especially apparent at
after-school SLV clinics, where parents and siblings posed additional challenges with
communication and crowd control. Appendix D includes the average percentage of staff in each
SLV function, and the number of SLV sites that encountered long vaccination times and delays,
by locality.

The majority of localities reported that they would make changes to their staffing procedures in
future SLV programs. For SLV programs in future influenza seasons, SLV planners reported
that they would streamline communication among planners, school staff, and onsite staff. SLV
planners in several localities reported challenges communicating, which resulted in
misinformation and duplication of efforts. To remedy this, SLV planners said that they would
clarify the roles of health department staff, school staff, and SLV site staff early in the process to
ensure that all staff members knew with whom to communicate.

SLV planners also recognized the need to provide more extensive guidance and training for SLV
staff. SLV planners reported that they would provide additional guidance to school staff to help
them better prepare for and operate the vaccination clinic. Additionally, they would provide
more advanced training to nurses and clerical staff about the SLV process, vaccine storage and
handling protocols, and how to more effectively review consent forms.

Finally, SLV planners in one selected locality reported that allocating staff to the SLV program
resulted in the interruption of regular school health services. In future programs, they plan to
implement “continuity of operations plans to cover day-to-day school health operations” to more
effectively allocate available staff for both activities.




OEI-04-10-00020   2009 H1N1 SLV Program Implementation
Page 19 – Thomas Frieden


Selected SLV Sites Experienced Challenges Communicating a Clear and Consistent
Message to Parents, Regardless of the Communication Method Used
SLV sites informed parents about potential vaccine adverse reactions and the need for a second
H1N1 vaccine dose in a number of ways. The majority sent information packets to parents by
mail or home with students. However, most SLV planners reported that distributing this
information was challenging, primarily because of a lack of clear guidance and procedures for
communicating with parents. For future SLV programs, planners reported that they would make
a number of changes, including providing additional training for those responsible for
communication.

SLV sites used similar methods for communicating with parents about potential adverse
reactions and the need for a second vaccine dose. The most common method (23 of 38) of
educating parents about potential vaccination adverse reactions was by sending information by
mail or home with students. SLV sites also educated parents onsite (15 of 38) and through
informational forums, television advertisements, and Web sites (11 of 38). Similarly, the most
common method (16 of 38) used to educate parents about the need for children 9 years of age
and younger to receive a second dose was by sending information to parents (e.g., on a
vaccination card or information sheet), either by mail or home with students. Another method
SLV sites reported using was making automated calls to parents (5 of 38).

More than one-third of SLV sites (15 of 38) had not decided if and when they would offer the
second dose. At these sites, no communication with parents about the provision of a second dose
clinic occurred at the time of our site visit, and the only communication about the need for a
second dose was a reference within the Vaccine Information Statements. However, by the time
of our followup survey 2–6 weeks later, all six localities planned to conduct followup clinics to
provide the second dose of the H1N1 vaccine to children 9 years of age and younger. Five
localities planned to conduct followup clinics at the same school where they administered the
first dose. The remaining locality planned to administer the second dose at mass vaccination
clinics open to the entire community.

SLV planners reported challenges conveying a clear and consistent message about vaccine safety
and effectiveness and the need for a second vaccine dose. SLV planners reported that two
significant communication challenges were not having (1) a procedure in place to share clear and
consistent messages and (2) sufficient training for SLV staff. Our observations supported these
reported challenges. For example, we observed an SLV staff member telling a school staff
member that the nasal mist was a weaker type of the vaccine and she would need to receive
multiple doses for it to be effective.

One challenge specific to communicating with parents about the need for a second dose was a
lack of quality control processes to ensure that children received the appropriate number of
vaccine doses at the recommended time interval. For example, SLV planners in three localities
reported that there was no centralized information-sharing system for private and public
providers to be informed of a child’s vaccination status if the parent did not share that



OEI-04-10-00020   2009 H1N1 SLV Program Implementation
Page 20 – Thomas Frieden


information. 45 A second related challenge reported by SLV planners was misinformation in the
media, which made communicating a clear message to parents more difficult. For instance, SLV
planners reported seeing or hearing inaccurate time intervals between the first and second doses,
as well as the overall need for children 9 years of age and younger to receive a second dose.

To improve overall communication and encourage more parents to vaccinate their children, SLV
planners suggested:

        developing a centralized information-sharing system or utilizing existing systems;
        establishing timelines for communication (e.g., when to distribute consent forms to
         parents, when to send reminders);
        distributing information earlier (e.g., beginning of school year, up to 1 month prior to the
         vaccination clinic date);
        providing more training to individuals responsible for communication; and
        notifying participating schools when vaccinators will be onsite, what resources will be
         requested, and what responsibilities school staff members will have (e.g., contacting
         parents, collecting consent forms, setting up vaccination areas).

The Majority of Selected Localities Did Not Bill Third-Party Payers for H1N1 Vaccine
Administration
Four of six localities had not established a billing system to bill for H1N1 vaccine administration
and instead used Public Health Emergency Response grant funding to cover vaccine
administration costs. One of these four localities gathered health insurance information but had
not decided whether it would bill third-party payers at the time of our visit. Another of these
localities paid its contractor a lump sum for vaccine administration costs instead of an amount
based on the actual cost of vaccinating the number of students that received the vaccine.
SLV planners in this locality calculated this sum by assuming that 50 percent of the student body
would be vaccinated and multiplying that number by a negotiated reduced fee. 46

The remaining two localities billed third-party payers for H1N1 vaccine administration.
However, while Medicare and Medicaid reimbursed vaccination administration costs, some
private insurance companies did not. One locality collected the vaccination fee from
parents (i.e., $15 in the locality) when a child’s insurance did not cover the vaccine
administration cost. 47 The other locality reimbursed its contractor for the vaccine administration
costs incurred by uninsured children and those children whose insurance did not cover the
administration cost.

45 Immunization registries can be used to share information regarding a child’s immunization status. However, we

did not assess whether data from the selected SLV sites were entered into immunization registries.
46 SLV planners reported that the negotiated per person fee ($10) is approximately half of the Medicare vaccine

administration fee in that region.
47 CDC guidance states that public health clinics and mass vaccination sites conducted on behalf of a public health

entity should not charge out-of-pocket expenses to patients. CDC, H1N1 Vaccine Administration Billing Q & As,
Response to Question 2,” op. cit.


OEI-04-10-00020      2009 H1N1 SLV Program Implementation
Page 21 – Thomas Frieden


Both localities that billed for vaccine administration used contracted companies that specialized
in providing vaccination services to the community (i.e., commercial community vaccinators)
with established billing systems. However, these commercial community vaccinators reported
that it was challenging to get insurance companies to reimburse for vaccine administration costs.
For example, commercial community vaccinators found it time consuming to identify insurance
companies who would reimburse for vaccine administration fees and to adapt their billing system
to accommodate each third-party payer’s billing codes and reimbursement rates. Additionally,
SLV planners commented that it was difficult for SLV staff to fill out all of the necessary billing
paperwork onsite.

CONCLUSION

We found that, by locality, selected SLV sites vaccinated an average of 28 percent of enrolled
students during their 1-day programs, ranging from 14 percent to 45 percent. This compares
favorably to relevant State and national vaccination rates obtained over a longer period of time
and through a variety of methods. For example, the average vaccination rate in the six
corresponding States was 37 percent. However, this statewide percentage reflects the number of
children vaccinated over a period of approximately 3 months using multiple methods
(e.g., private providers, commercial pharmacies, mass vaccination clinics, SLV) and for a wider
age range. The majority of selected localities reported SLV to be a useful method to vaccinate a
large number of children in a short period of time, but they also reported that they would need
additional resources to implement future SLV programs.

We also found a number of challenges associated with implementing SLV programs. For
example, we observed that the majority of selected SLV sites used recommended vaccine storage
containers but did not monitor and record vaccine storage temperature. All selected localities
reported challenges securing sufficient SLV staff and distributing them effectively across
staffing functions. Additionally, selected SLV sites reported experiencing challenges
communicating a clear and consistent message to parents about potential vaccination adverse
reactions and the need for a second vaccine dose. Finally, the majority of selected localities had
not established a billing system to bill third-party payers for the cost of H1N1 vaccine
administration.

The selected localities reported a number of things they would do differently in future SLV
programs. These include simplifying the consent form and educational materials; standardizing
the consent form review process; devoting more staff to registration, triage, and translation;
streamlining staff communication and training; developing a centralized information-sharing
system; and distributing information to parents and participating schools earlier.

Our data indicate that SLV can be a viable strategy for vaccinating a large number of students in
a short period of time. However, SLV programs require a significant amount of planning and
resources. To help mitigate challenges in future SLV programs, SLV planners will need
specific, timely guidance for each of the SLV elements we reviewed and sufficient lead time to



OEI-04-10-00020   2009 H1N1 SLV Program Implementation
Page 22 – Thomas Frieden


address them. See Appendix E for a list of SLV planning considerations that CDC may take into
account when determining useful SLV practices and assisting States and localities that are
interested in conducting SLV programs.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-04-10-00020 in all correspondence.




OEI-04-10-00020   2009 H1N1 SLV Program Implementation
Page 23 – Thomas Frieden


Appendix A

Selected Localities*

Locality (State)
Alexandria (VA) and Arlington (VA)

Baltimore (MD)

Minneapolis (MN)

New York City (NY)

Phoenix (AZ)

St. Louis (MO)
* Selected localities are listed in alphabetical order and do not appear in this
order throughout the rest of the report.
Source: Office of Inspector General analysis of H1N1 School-Located
Vaccination data, 2010.




OEI-04-10-00020           2009 H1N1 SLV Program Implementation
Page 24 – Thomas Frieden


Appendix B

Characteristics of Selected School-Located Vaccination Sites
                                                              Number of                       Groups Eligible        SLV Site
                  School-                   Number of
                                                              First H1N1        Type of            To Receive     Timing (i.e.,
                  Located          SLV       Students
Locality                                                  Vaccine Doses         Vaccine             Vaccine in    held during
               Vaccination         Date     Enrolled at
                                                           Administered        Available           Addition to        or after
                (SLV) Site                    SLV Site
                                                             at SLV Site                    Enrolled Students         school)
                   School 1     11/4/09            688               369       Inj & Mist                 Staff           After
                                                                                                   Nonenrolled
                   School 2     11/4/09            534                  187    Inj & Mist                                 After
                                                                                                students; Staff
                   School 3     11/5/09            490                  269    Inj & Mist                 Staff         During
                   School 4     11/5/09            900                  314    Inj & Mist                 Staff         During
A                  School 5     11/5/09            950                  266     Injection                 Staff         During
                                                                                                   Nonenrolled
                   School 6     11/5/09            694                  374    Inj & Mist                               During
                                                                                                students; Staff
                  School 7      11/5/09            572                   222   Inj & Mist                 Staff           After
                  School 8      11/5/09            687                   463   Inj & Mist                 Staff           After
                 Locality A                      5,515                 2,464
                  School 1     11/23/09            494                   167   Inj & Mist                  N/A          During
                  School 2     11/23/09            607                   228   Inj & Mist                  N/A          During
                  School 3     11/24/09            794                   166   Inj & Mist                  N/A          During
B                 School 4     11/24/09            624                   194   Inj & Mist                  N/A          During
                  School 5     11/24/09            351                   111   Inj & Mist                  N/A          During
                  School 6     11/24/09            560                   150   Inj & Mist                  N/A          During
                 Locality B                      3,430                 1,016
                  School 1     11/12/09            410                   111   Inj & Mist                  N/A          During
                  School 2     11/12/09            580                    98   Inj & Mist                  N/A          During
                  School 3     11/13/09            485                    89   Inj & Mist                  N/A          During
C                 School 4     11/12/09            421                   128    Injection                  N/A          During
                  School 5     11/12/09            681                   279    Injection      Staff (pregnant)         During
                  School 6     11/13/09            390                   130    Injection                  N/A          During
                 Locality C                      2,967                   835
                  School 1     12/14/09            192                    20   Inj & Mist                  N/A          During
                  School 2     12/14/09            284                    49   Inj & Mist                  N/A          During
                  School 3     12/14/09            360                   123   Inj & Mist                  N/A          During
D                 School 4     12/15/09            483                    21   Inj & Mist                 Staff         During
                  School 5     12/15/09            285                    88   Inj & Mist                  N/A          During
                  School 6     12/15/09            404                   153    Injection                  N/A          During
                 Locality D                      2,008                   454
                                                                                                      Siblings;
                   School 1    11/20/09            555                   96    Inj & Mist          Nonenrolled            After
                                                                                                      students
                   School 2    11/19/09            651                   46    Inj & Mist              Siblings           After
                   School 3    11/19/09            616                   70    Inj & Mist              Siblings           After
E                  School 4    11/19/09            610                   96    Inj & Mist              Siblings           After
                   School 5    11/19/09            903                  227    Inj & Mist              Siblings           After
                                                                                                      Siblings;
                   School 6    11/20/09          1,245                  267    Inj & Mist          Nonenrolled            After
                                                                                                      students
                 Locality E                      4,580                  802
                  School 1     12/03/09            268                   24    Inj & Mist                  N/A          During
                  School 2     12/03/09            821                   81    Inj & Mist                  N/A          During
                  School 3     12/03/09            372                   52    Inj & Mist                  N/A          During
F                 School 4     12/04/09            357                   49    Inj & Mist                  N/A          During
                  School 5     12/04/09            294                   50    Inj & Mist                  N/A          During
                  School 6     12/04/09            250                   83    Inj & Mist                  N/A          During
                 Locality F                      2,362                  339
Source: Office of Inspector General analysis of H1N1 SLV data, 2010.



OEI-04-10-00020        2009 H1N1 SLV Program Implementation
Page 25 – Thomas Frieden


Appendix C

School-Located Vaccination Site Characteristics Based on Interview and Observation Data
                                                                Consent Form Distribution
                            Vaccine Storage         Staffing                                                   Communicating With Parents                      Third-Party Billing
                                                                & Verification of Eligibility
                         Type of       Vaccine                                                         Method of                           Will Locality
              School-                               Number       Method of     Days Between
                         Vaccine       Storage                                                       Distributing           Method of     Offer Second        How Did Locality Cover
              Located                               of Staff    Distributing   Consent Form
Locality                 Storage    Temperature                                                           Vaccine     Informing About           Dose at       Vaccine Administration
           Vaccination                               at SLV        Consent     Distribution &
                          at SLV    Monitored &                                                      Information         Second Dose         Same SLV                        Costs?
            (SLV) Site                                  Site          Forms      Vaccination
                             Site     Recorded                                                       Statements                                  Sites?
              School 1    Cooler             No           12         Online;      Unknown by        Online; onsite;             Online;
                                                                      onsite       respondent                other     vaccination card
              School 2    Cooler              No            8        Online                9        Email; phone;           Undecided
                                                                                                             other
              School 3    Cooler              No            7        Online       Unknown by        Email; onsite;          Undecided
                                                                                   respondent                other
              School 4    Cooler              No          13         Online               11        Other; answer               Online;
                                                                                                         questions     vaccination card
A             School 5    Cooler              No          10         Online                     8            Other          Undecided

              School 6    Cooler              No            8        Online       Unknown by        Online; onsite              Onsite
                                                                                   respondent
              School 7    Cooler              No            8        Online;               14       Email; answer           Undecided
                                                                      onsite                           questions
              School 8    Cooler              No          16         Online;                    7      Unknown            Unknown by
                                                                      onsite                                               respondent
            Locality A                              10 (avg.)                  10 days (avg.)                                             Yes                   Bill third-party payers

              School 1    Fridge              Yes           9   Unknown by                  35      Consent form      Vaccination card
                                                                 respondent
              School 2    Fridge              No          14           Mail                 29      Consent form      Vaccination card

              School 3    Fridge              Yes           8   Unknown by                  28      Consent form            Undecided
                                                                 respondent
              School 4    Fridge              Yes         11    Unknown by                  31      Consent form            Undecided
B
                                                                 respondent
              School 5    Fridge              No          15          Child                 27      Email; answer                Email
                                                                                                       questions
              School 6    Fridge              No          15           Child                61      Consent form                Phone;
                                                                                                                       vaccination card
            Locality B                              12 (avg.)                  35 days (avg.)                                                       Yes      Undecided at the time of
                                                                                                                                                                             our visit
                                                                                                                                                      Continued on next page



OEI-04-10-00020     2009 H1N1 SLV Program Implementation
Page 26 – Thomas Frieden


Appendix C

School-Located Vaccination Site Characteristics Based on Interview and Observation Data (Continued)
                                                               Consent Form Distribution
                           Vaccine Storage         Staffing                                                   Communicating With Parents                    Third-Party Billing
                                                               & Verification of Eligibility
                        Type of       Vaccine                                                         Method of                          Will Locality
                                                   Number       Method of      Days Between
                        Vaccine       Storage                                                       Distributing          Method of     Offer Second       How Did Locality Cover
                                                   of Staff    Distributing    Consent Form
Locality    SLV Site    Storage    Temperature                                                          Vaccine     Informing About           Dose at      Vaccine Administration
                                                    at SLV        Consent      Distribution &
                         at SLV    Monitored &                                                      Information        Second Dose         Same SLV                       Costs?
                                                       Site          Forms       Vaccination
                            Site     Recorded                                                       Statements                                 Sites?
            School 1     Cooler             No           17            Mail                27      Consent form;    Vaccination card
                        & fridge                                                                   other; answer
                                                                                                       questions
            School 2     Cooler              No          15    Online; mail                24      Consent form;    Vaccination card
                        & fridge                                                                    onsite; other
            School 3     Cooler              No          16     Mail; online               23      Consent form;    Vaccination card
                        & fridge                                                                           phone
            School 4     Cooler              Yes          9           Child                28      Consent form      N/A: vaccinated
C                                                                                                                    only children >9
                                                                                                                            years old
            School 5     Cooler              Yes         13           Child                18      Other; answer          Undecided
                                                                                                       questions
            School 6     Cooler              Yes         10           Child                29      Consent form;    Vaccination card
                                                                                                   other; answer
                                                                                                       questions
           Locality C                              13 (avg.)                   25 days (avg.)                                                     Yes     Public Health Emergency
                                                                                                                                                         Response (PHER) funding
            School 1     Cooler              No           5           Child                30      Consent form     Vaccination card;
                                                                                                                          Undecided
            School 2     Cooler              No           5           Child                34      Consent form;          Undecided
                                                                                                          onsite
            School 3     Cooler              No           6           Child                28      Consent form;          Undecided
                                                                                                          onsite
D           School 4     Cooler              No           7           Child                    8   Consent form;          Undecided
                                                                                                          onsite
            School 5     Cooler              No           4           Child                30      Consent form;          Undecided
                                                                                                          onsite
            School 6     Cooler              Yes          6           Child                30      Consent form           Undecided

           Locality D                               6 (avg.)                   27 days (avg.)                                                     Yes     Lump sum to contractors;
                                                                                                                                                                       PHER funding
                                                                                                                                                    Continued on next page




OEI-04-10-00020    2009 H1N1 SLV Program Implementation
Page 27 – Thomas Frieden


Appendix C

School-Located Vaccination Site Characteristics Based on Interview and Observation Data (Continued)
                                                                       Consent Form Distribution
                                Vaccine Storage         Staffing                                                    Communicating With Parents                 Third-Party Billing
                                                                       & Verification of Eligibility
                           Type of         Vaccine                                                           Method of                         Will Locality
                                                         Number         Method of     Days Between
                           Vaccine         Storage                                                         Distributing         Method of     Offer Second     How Did Locality Cover
                                                         of Staff      Distributing   Consent Form
Locality       SLV Site    Storage      Temperature                                                            Vaccine    Informing About           Dose at    Vaccine Administration
                                                          at SLV          Consent     Distribution &
                            at SLV      Monitored &                                                        Information       Second Dose         Same SLV                     Costs?
                                                             Site            Forms      Vaccination
                               Site       Recorded                                                         Statements                                Sites?
                School 1    Cooler              Yes            33           Onsite                     0         Onsite         Undecided

                School 2     Cooler               Yes          31           Onsite                     0         Onsite             Phone;
                                                                                                                           vaccination card
                School 3     Cooler               Yes          33           Onsite                     0         Onsite             Phone;
                                                                                                                           vaccination card
                School 4     Cooler               No           30           Onsite                     0         Onsite              Phone
E

                School 5     Cooler               Yes          30           Onsite                     0         Onsite         Undecided

                School 6     Cooler               Yes          30           Onsite                     0         Onsite             Phone;
                                                                                                                           vaccination card
              Locality E                                31 (avg.)                              0 days                                                   Yes     Bill third-party payers

                School 1     Cooler               No            7             Child                39      Consent form   Vaccination card

                School 2     Cooler               No            8             Child                49      Consent form   Vaccination card

                School 3     Cooler               No            6            Other                 49      Consent form   Vaccination card

F               School 4     Cooler               No            7      Unknown by                  50      Consent form   Vaccination card
                                                                        respondent
                School 5     Cooler               No            6            Child                 50      Consent form   Vaccination card

                School 6     Cooler               No            5      Unknown by                  29      Consent form   Vaccination card
                                                                        respondent
              Locality F                                 7 (avg.)                     44 days (avg.)                                                     No             PHER funding
Source: Office of Inspector General analysis of H1N1 SLV data, 2010.




OEI-04-10-00020       2009 H1N1 SLV Program Implementation
Page 28 – Thomas Frieden


Appendix D

Staff and Staffing Functions at Selected School-Located Vaccination Sites, Long Vaccination Times, and Delays, by Locality

                                            Average Percentage of Staff in Each School-Located Vaccination Staffing Function*
                      Average                                                                                                                                        Number of
                   Number of                                                                                                                                           Selected
                 Staff at Each                                                                                                                      SLV Site          SLV Sites
                     Selected                                                                                                                          Timing              That        Number of
                       School-                                                                                                                     (i.e., held     Encountered       Selected SLV
                      Located                                                                                                                      during or              Long          Sites That
                  Vaccination                                                 Special                                       Post-                         after     Vaccination      Encountered
Locality            (SLV) Site    Vaccinator      Triage     Registration      Needs       Manager        Clerical        vaccine       Other         school)            Times              Delays
                                                                                                                                                     During &
A                            10          54%          9%              26%          6%            6%             0%             0%          0%                                  3                 3**
                                                                                                                                                           After
B                            12          39%         31%              19%         0%             7%             0%             3%          0%           During                 1                 0
C                            13          36%         30%              14%         0%             6%             5%             3%          6%           During                 0                 0
D                             6          36%         33%              15%         0%            12%             3%             0%          0%           During                 0                 2**
E                            31          15%         25%              11%        18%             8%             0%             2%         20%              After               2                 3**
  Total
                          13           31%        23%               17%            8%            8%             3%             2%           9%
  Average
* Sums of percentages do not equal 100 percent because of rounding.
** Delays occurred at registration and were because of insufficient staffing in various roles related to processing consent forms and registration, as well as communication with parents, including
providing translation services.
Source: Office of Inspector General analysis of H1N1 SLV data, 2010.




OEI-04-10-00020         2009 H1N1 SLV Program Implementation
Page 29 – Thomas Frieden


Appendix E

                    School-Located Vaccination Planning Considerations

The following planning considerations are based on observations, interviews, and surveys
conducted at 38 selected School-Located Vaccination (SLV) sites in 6 localities during the 2009
H1N1 influenza pandemic. The Centers for Disease Control and Prevention may consider this
document when determining useful SLV practices and assisting States and localities that are
interested in conducting SLV programs. Items are listed in semichronological order and cover
topics that are important to consider when planning and implementing SLV programs.

   1. Identify school districts/individual schools that are interested in participating in the
      SLV program and involve parents and school staff early in the planning process.
      Once schools are identified, hold meetings with principals, teachers, school nurses,
      Parent Teacher Association members, providers, and other relevant stakeholders. For
      example, health department staff can give an overview of the SLV method and identify
      the respective responsibilities of the health department and schools during the program.
      These responsibilities may include:

           a. Health Department
                  i. Provide a diagram of the clinic, including setup and patient flow
                 ii. Provide vaccine and related supplies
                iii. Identify and provide staff (e.g., managers, vaccinators)
                iv. Develop the consent form and educational materials

           b. Schools
                  i. Provide dedicated space for the SLV clinic and set up the space according
                     to diagram provided by health department.
                 ii. Identify and provide staff and/or parent volunteers (e.g., triage,
                     translators).
                iii. Develop a plan for communicating with parents (e.g., informing them of
                     the SLV program, distributing consent forms and educational materials
                     provided by the health department).

   2. Consider that staffing needs are affected by SLV timing. We observed that SLV sites
      held during school hours tended to have lower attendance, possibly because of the fact
      that parents could not accompany students. However, we also observed that these sites
      were generally more organized because SLV staff could control the number of people in
      the vaccination area at any one time (e.g., by bringing one class in at a time).
      Alternatively, SLV sites held after school tended to have higher attendance because
      parents and siblings could accompany the enrolled student and, at some SLV sites,
      receive the H1N1 vaccine. However, we also observed that these sites were often
      overcrowded and poorly organized, which resulted in longer wait times.



OEI-04-10-00020   2009 H1N1 SLV Program Implementation
Page 30 – Thomas Frieden



   3. Provide online and paper versions of the consent form. Online systems for
      completing consent forms can be convenient and efficient (e.g., because the system
      checks the consent form for completeness and eligibility before allowing parents to
      submit it). However, not all parents have access to a computer to complete the consent
      form online. Therefore, it may be beneficial to give parents the option to complete the
      online consent form at home and/or during a scheduled time in the school’s computer lab.
      Paper consent forms can also be provided to parents who would prefer this format over
      the online method. These paper forms should be reviewed in advance for completeness,
      preferably by one person within the health department or the school nurse to ensure
      consistency.

       To determine which method parents will use to complete the consent forms (e.g., online
       or hard copy), schools can communicate with parents to:

           (1) notify parents of the scheduled SLV clinic;
           (2) ask parents if they would like to complete the form online at home, online at the
               school, or use the paper format; and
           (3) provide parents the option to decline vaccination and explain why. Understanding
               why parents do not want their children vaccinated may allow SLV staff to dispel
               misinformation and improve future programs.

   4. Conduct a walk through of the SLV site prior to the event. This will give health
      department and school staff a chance to review the logistics for the event and address any
      concerns prior to the vaccination day. Health department and school officials may also
      want to schedule this time for parents to come in and complete the consent forms online.
      By scheduling these events at the same time, health department staff can answer
      questions or concerns that parents may have and eliminate the need for SLV planners
      and/or staff to make several trips to the school.

   5. Use automated phone calls and/or emails to remind parents to complete and return
      consent forms. This task may be delegated to the health department or the schools,
      depending on resources. Automated calls can be used to remind a large number of
      parents and may include information regarding the date parents can come to the school to
      complete forms, as well as the actual vaccination date. Automated email reminders
      (generated by the online registration system) may also be sent to parents who completed
      forms online.

   6. Pack vaccine coolers and supply kits the day before and have couriers deliver these
      items the day of the SLV clinic. Packing these items the day before and having couriers
      or other non-SLV staff deliver the items to the schools the day of the program saves time
      by eliminating the need for SLV staff to go to the health department before and after the
      event. Couriers can deliver the vaccine daily from the initial storage site (i.e., health



OEI-04-10-00020   2009 H1N1 SLV Program Implementation
Page 31 – Thomas Frieden


       department or contractor’s office) to the SLV site. SLV planners in two of the three
       localities that used couriers reported that this method worked well for transporting the
       vaccine and supplies to the correct site without relying on SLV site staff. Other SLV
       sites used onsite staff to transport the vaccine or had the vaccine delivered directly from
       the manufacturer. SLV planners in three localities also noted that having health
       department employees prepackage the vaccines and supplies was helpful in saving time
       and ensuring that all needed supplies reached the SLV site.

   7. Monitor and record vaccine storage temperature according to the guidelines
      appropriate for the storage container (i.e., cooler or refrigerator). Once coolers have
      been transported to the SLV sites, the temperature inside the coolers should be monitored
      and recorded every hour; if vaccines are placed in refrigerators, the temperature should be
      monitored and recorded twice each day. SLV planners considering using refrigerators to
      store the vaccine should be aware of the additional cost, as well as accompanying
      mobility and storage issues (e.g., thermometer calibration).

   8. Ask school staff to set up the vaccination room, including privacy and waiting areas,
      before the health department or contracted vaccinators arrive. It may be more
      comfortable for students if privacy is provided for those being vaccinated. This may be
      done using screens or folding mats to create temporary walls between vaccination
      stations. Vaccination rooms can also have a waiting area for students to sit in before and
      after vaccination. Waiting areas may include toys, books, or videos to keep children
      occupied. Ensuring privacy and providing distractions in the waiting area can help calm
      students who may be nervous or upset. The day before, the health department may want
      to call schools to discuss any last-minute questions or concerns.

   9. Include principals, teachers, and/or school nurses when organizing SLV staff, and
      provide an adequate number of registrars, triage, health educators, and translators,
      based on community needs. Including the school staff can be helpful as they typically
      know the children’s parents and medical history. Additionally, school staff can often
      help as translators if non-English-speaking students or parents will be participating. By
      providing additional registrars, triage, and health educators, planners can avoid potential
      delays in patient flow.

   10. Ask registrars to use a roster that includes all of the students who returned a signed
       consent form. At the registration desk, students can be matched to the roster and asked
       to verify their identity. Once the student has been correctly identified, the registrar can
       give each student a copy of his or her consent form before he or she is escorted to the
       vaccination station. Planners may decide to use a color-coded system to identify which
       form of the vaccine, if any, a student should receive. For example, SLV sites in one
       locality used a color-coded sticker system to ensure that students received the proper type
       of vaccine; administrative staff placed a green, yellow, or red sticker on the consent form
       to indicate whether the student should receive the injection, mist, or no vaccine. For



OEI-04-10-00020   2009 H1N1 SLV Program Implementation
Page 32 – Thomas Frieden


       example, a form might receive a red sticker for “no vaccine” because the parent changed
       his or her mind, the child was vaccinated by his or her private provider in the interim, or
       the child was exhibiting influenza-like symptoms (e.g., fever).

   11. Make communication materials developed by Federal, State, and/or local agencies
       available to parents when they complete the consent forms as well as on the day of
       vaccination. It may be helpful if these materials are available in every language spoken
       by families at the school. Health departments can develop a sheet of frequently asked
       questions that dispels any rumors or misconceptions about the vaccine. Planners may
       want to review the reasons, if any, parents gave on consent forms for not vaccinating
       their children when developing this document. Once vaccinated, students should receive
       a Vaccine Information Statement that includes information about possible adverse
       reactions and a phone number to call if there are any questions. This sheet can also be
       sent home to parents of children who will need a second dose of the vaccine and include
       information regarding when and where the second dose will be administered. Once the
       child receives his or her second dose, he or she could take home a vaccination card
       including the administration date of both doses. Children who do not need a second dose
       can be sent home with the vaccination card or record the day that they are vaccinated.

   12. Determine whether it is beneficial to bill third-party payers for vaccine
       administration costs. Vaccine administration costs are typically paid through grant
       funding, State funds, or by billing third-party payers. While billing insurance companies
       enables health departments or contracted vaccinators to recoup some of their
       expenditures, it can be time consuming and requires a billing system to be in place, as
       well as a method for collecting insurance information (e.g., requesting that parents
       provide insurance information on the consent form).




OEI-04-10-00020   2009 H1N1 SLV Program Implementation
